OTO, LLC v. Ken Kho, et al., Case No. 19-875
PROOF OF SERVICE
Iam a citizen of the United States and resident of the State of California. Iam employed in the
County of Alameda, State of California, in the office of a member of the bar of this Court, at whose
direction this service was made. Iam over the age of eighteen years and not a party to the within
action.
On March 11, 2020,Iserved the following documents in the manner described below:
LETTER REQUESTING EXTENSION OF TIME TO FILE OPPOSITION TO PETITION
FOR WRIT OF CERTIORARI
(BY ELECTRONIC SERVICE: By electronically mailing a true and correct copy
through Weinberg, Roger & Rosenfeld's electronic mail system from
kkempler@unioncounsel.net to the email addresses set forth below.
On the following part(ies) in this action:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison
LLP
2001 K Street, N.W.
Washington, D.C. 20006
kshanmugam@paulweiss.com

Miles E. Locker
California Department of Industrial Relations
Division of Labor Standards Enforcement
455 Golden Gate Avenue, 9th Floor
San Francisco, CA 94102
mlocker@dir.ca.gov

Counselfor Petitioner

Counselfor Respondent, California
Department ofIndustrial Relations
Division ofLabor Standards Enforcement

Janill L. Richards
Office of the State Attorney General
455 Golden Gate Avenue
San Francisco, CA 94102
janillsichards@doj.ca.gov
Counselfor Respondent, California
Department ofIndustrial Relations
Division ofLabor Standards Enforcement

Ideclare under penalty of perjury under the laws of the United States of America that the foregoing is
true and correct. Executed on March 11, 2020, at Alameda, California.

Karen Kempler

